<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES PROJECTS AND POLICY, PART 2</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES 
                      PROJECTS AND POLICY, PART 2

=======================================================================

                                (115-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             

             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-629 PDF                 WASHINGTON : 2018                                  
                             
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BOB GIBBS, Ohio                      GRACE F. NAPOLITANO, California
DANIEL WEBSTER, Florida              DANIEL LIPINSKI, Illinois
JEFF DENHAM, California              STEVE COHEN, Tennessee
THOMAS MASSIE, Kentucky              ALBIO SIRES, New Jersey
MARK MEADOWS, North Carolina         JOHN GARAMENDI, California
SCOTT PERRY, Pennsylvania            HENRY C. ``HANK'' JOHNSON, Jr., 
RODNEY DAVIS, Illinois               Georgia
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
ROB WOODALL, Georgia                 RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut, 
GARRET GRAVES, Louisiana             Vice Ranking Member
BARBARA COMSTOCK, Virginia           LOIS FRANKEL, Florida
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              BRENDA L. LAWRENCE, Michigan
JOHN J. FASO, New York               MARK DeSAULNIER, California
A. DREW FERGUSON IV, Georgia         STACEY E. PLASKETT, Virgin Islands
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
VACANCY

                                (ii)

  


            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA L. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Major General Scott Spellmon, Deputy Commanding General for Civil 
  and Emergency Operations, U.S. Army Corps of Engineers:


    Oral statement...............................................     3
    Prepared statement...........................................     4
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    



  BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: WATER RESOURCES 
                      PROJECTS AND POLICY, PART 2

                              ----------                              


                       FRIDAY, SEPTEMBER 7, 2018

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. Good morning. The subcommittee 
will come to order. Without objection, the Chair is authorized 
to declare a recess at any time.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee in 
today's hearing and ask questions.
    Is there any objection?
    Without objection, so ordered.
    I want to welcome everyone to our hearing today, ``Building 
a 21st-Century Infrastructure for America: Water Resources 
Projects and Policy, Part 2.'' The Corps of Engineers 
constructs water resource projects across the Nation and even 
military missions around the world. These include navigation 
projects, ecosystem restoration, flood control, hurricane 
protection, and other water resources type projects.
    Today, we are going to review six Army Corps of Engineers 
Chief's Reports and three Post-Authorization Change Reports 
that have been delivered to Congress since we passed H.R. 8 out 
of committee and out of the House of Representatives. This 
brings the total number of Chief's Reports to 12 and the total 
number of PACRs, the Post-Authorization Change Reports, to 4 
since the last WRDA bill.
    These reports are the result of an arduous process where 
they look at technical feasibility, environmental implications, 
and economic considerations, as well to ensure that there is a 
public or national interest in proceeding with these projects. 
All the reports are tailored to meet locally developed needs 
and have support from the non-Federal sponsors.
    This hearing today is an important step in Congress' 
oversight responsibility for the Corps water resources program. 
And I appreciate Major General Spellmon being here today. I 
believe it is the first time you have been in our committee. 
And I do appreciate all the Members that are here as well.
    I recognize the ranking member, Mrs. Napolitano, for any 
remarks that she may have.
    Mrs. Napolitano. Thank you, Mr. Chairman. I am very pleased 
to be here this morning to welcome Mr. Spellmon. And thank you 
for holding this very important hearing to reflect on the 
condition of our Nation's water resources infrastructure.
    And I do want to extend a warm welcome to today's witness, 
Major General Scott Spellmon, deputy commanding general for 
Civil and Emergency Operations at the Corps of Engineers.
    Today's hearing is a crucial necessary step that this 
subcommittee must take as we work towards enactment of the 
Water Resources Development Act of 2018, the WRDA. Since the 
passage of the Water Resources Development Act of 2016 last 
Congress, the Corps of Engineers has completed and submitted 16 
Chief's Reports to Congress that include projects in Seattle, 
Washington; Norfolk, Virginia; Lower San Joaquin River in 
California; Kentucky River in Kentucky; San Juan, Puerto Rico 
and others. These projects whose purpose include flood and 
storm risk management, ecosystem restoration, and navigation 
are critical to developing and maintaining our economy at the 
local, regional, and national levels.
    Today's subcommittee members have the opportunity to 
evaluate this year's reports, as well as the 2017 and 2018 
annual reports submitted by the Corps to Congress pursuant to 
section 7001 of the Water Resources Reform and Development Act 
of 2014. These annual reports identify completed and proposed 
feasibility studies, as well as proposed modifications to 
authorized projects or studies based upon requests submitted to 
the Corps by non-Federal project sponsors.
    Mr. Chairman, like you, I am excited to continue our work 
on the Water Resources Development Act of 2018. This committee 
has been extremely successful in getting our work done, thanks 
to you and the ranking member of the full committee as well as 
the chair. And authorizing this next generation of Corps 
projects will benefit our communities and our Nation.
    Unfortunately, I share the frustration many of our local 
sponsors and my own colleagues in this body when we account for 
how little work the work they put into authorizing Corps 
projects ultimately means if the funding to build that project 
does not follow easily. That is to say, our Nation's water 
resources infrastructure is vastly underfunded, and what we 
need is a bold vision on how to make necessary infrastructure 
investments. Ultimately, only increased investment in our water 
resources infrastructure will enable us to see that the hard 
work of our local sponsors and the Corps comes into reality.
    I thank you, Mr. Chair, for holding this hearing, and look 
forward to the dialogue. I yield back.
    Mr. Graves of Louisiana. Thank you, Mrs. Napolitano.
    Before we get into introducing our witness this morning, 
allow me to submit some unanimous consent requests.
    I ask unanimous consent that the record remain open for 15 
days for additional comments and information submitted by 
Members or the witness to be included in the record of today's 
hearing. Without objection, so ordered.
    I ask unanimous consent the record of today's hearing 
remain open until such time as our witness has provided answers 
to any questions that may be submitted to him in writing. 
Without objection, so ordered.
    Thank you. I want to welcome Major General Scott Spellmon 
to our committee, the Deputy Commanding General of the Corps of 
Engineers.
    And, General, I recognize you for your testimony.

 TESTIMONY OF MAJOR GENERAL SCOTT SPELLMON, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. ARMY CORPS OF 
                           ENGINEERS

    General Spellmon. Well, thank you. And good morning, 
everyone.
    Chairman Graves, Ranking Member Napolitano, and 
distinguished members of the subcommittee, my name is Major 
General Scott Spellmon. I am the Deputy Commanding General for 
Civil and Emergency Operations for the U.S. Army Corps of 
Engineers.
    I want to first thank you for the opportunity to be here 
today to discuss Chief's Reports that have been completed since 
the passage of H.R. 8, the Water Resources Development Act of 
2018, back in June. As this is my first time testifying before 
this subcommittee, I did want to take just a brief moment and 
introduce myself.
    Before assuming my current position, I served as the Army 
Corps commander for the Northwestern Division. In this role, I 
had the privilege of overseeing a very challenging and dynamic 
annual program of more than $3 billion for civil works, 
environmental restoration, and military construction projects. 
My area of responsibility covered 14 States, from St. Louis, 
Missouri; to Seattle, Washington; essentially encompassing the 
Missouri and Columbia River Basins.
    I am excited to take on this challenging role leading the 
Corps Civil Works program, and look forward to working 
collaboratively with this committee as we deliver beneficial 
water resources projects to our Nation.
    Now, since the passage of H.R. 8, six studies have been 
completed and have had Chief's Reports signed. All of these are 
still under review by the executive branch. Four of these 
Chief's Reports recommend navigation improvements, including 
those in Seattle Harbor, Washington; Norfolk Harbor, Virginia; 
San Juan Harbor in Puerto Rico; and on the Three Rivers project 
along the McClellan-Kerr Arkansas River Navigation System. A 
fifth is a recommended project for flood risk management on the 
Lower San Joaquin River in California. And the sixth is an 
aquatic ecosystem restoration study of the resacas, which are 
Oxbow lakes located in Brownsville, Texas.
    The Corps has also approved and transmitted three Post-
Authorization Change Reports for executive review. Two of these 
reports document and recommended an increase in the total 
authorized project cost which require congressional 
authorization. One is for the construction of the Chickamauga 
Lock and Dam in Tennessee, and the other is for construction of 
a new lock at the Soo locks on the Saint Marys River in 
Michigan. The third Post-Authorization Change Report recommends 
crediting of costs to the non-Federal sponsor associated with 
certain activities on the central and southern Florida project, 
Kissimmee River Restoration.
    I would also like to take this opportunity to provide a 
brief update on the 2018 Report to Congress on Future Water 
Resources development as required by section 7001 of the Water 
Resources Reform and Development Act of 2014. An open period 
for potential non-Federal sponsors to submit projects occurred 
between April and August of this year. During this 120-day 
window, the Corps utilized traditional media, as well as social 
media outlets, to inform the public of the opportunity to 
submit proposals. Additionally, we hosted a public webinar to 
explain the criteria that these proposals must meet. A total of 
34 proposals were received, and they are currently being 
evaluated per the criteria in section 7001.
    Mr. Chairman and members of the committee, this concludes 
my statement. I appreciate the opportunity to testify today, 
and I look forward to any questions you may have.
    [General Spellmon's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Major General Scott Spellmon, Deputy Commanding 
    General for Civil and Emergency Operations, U.S. Army Corps of 
                               Engineers
    Mr. Chairman and distinguished members of the subcommittee, I am 
honored to be testifying before you today to discuss Reports of the 
Chief of Engineers (Chief's Reports) and Post Authorization Change 
Reports (PACRs) completed since the passage of H.R. 8, the Water 
Resources Development Act of 2018. I am Major General Scott Spellmon, 
Deputy Commanding General, Civil and Emergency Operations, U.S. Army 
Corps of Engineers (Corps). This is the first time I appear before you 
in my current position; I previously served as the Commander of the 
Corps Northwestern Division. I look forward to continuing to work with 
this committee. There are six projects that have reports by the Chief 
of Engineers but are still under executive branch review. Also, there 
are three pending PACRs currently under executive branch review. The 
Secretary's office has also forwarded to the Congress a study provided 
by a non-Federal interest under the authority of Section 203 of WRDA 
1986 (P. L. 99-662), as amended, with the Secretary's Review Assessment 
of the study.
    I first would like to provide a brief update on the 2018 Report to 
Congress on Future Water Resources development as required by Section 
7001 of WRRDA 2014. The notice requesting proposals by non-Federal 
interests for proposed feasibility studies and proposed modifications 
to authorized water resources development projects was published in the 
Federal Register on April 20, 2018. The Federal Register Notice is 
posted on the Corps Headquarters website and the Corps has utilized 
social media throughout the open season to inform the public of the 
opportunity to submit proposals. The Corps hosted a public webinar on 
July 31, 2018, that explained the criteria that proposals must meet, 
the process to submit proposals and the timeline to be considered for 
the 2018 Report. Notification to the public regarding this webinar was 
provided through social media on several days through July of 2018 and 
it also located on the Corps of Engineers website. The deadline for 
non-Federal interests to submit proposals to the Corps was August 20, 
2018. There were 34 proposals received.
    The six proposed projects with reports by the Chief of Engineers 
since passage of H.R. 8 that were neither included in H.R. 8 nor 
already authorized and that the executive branch is in the process of 
reviewing are:
    <bullet>  San Joaquin River Basin, Lower San Joaquin, California 
(Flood Risk Management)
    <bullet>  Seattle Harbor, Washington (Navigation)
    <bullet>  Norfolk Harbor and Channels, Virginia (Navigation)
    <bullet>  San Juan Harbor Improvements, Puerto Rico (Navigation)
    <bullet>  Three Rivers, Arkansas (Navigation)
    <bullet>  Resacas at Brownsville, Texas (Aquatic Ecosystem 
Restoration)
    There are also three PACRs that are under executive branch review. 
These reports are:
    <bullet>  St. Marys River, Soo Locks, Michigan (Navigation)
    <bullet>  Chickamauga Lock, Tennessee River, Tennessee (Navigation)
    <bullet>  South Florida Ecosystem Restoration (Kissimmee River), 
Florida (Aquatic Ecosystem Restoration)
    In July of 2018, the Office of the Assistant Secretary of the Army 
for Civil Works forwarded to the Congress a study prepared by a non-
Federal interest, South Florida Water Management District (SFWMD), 
under the authority of Section 203 of WRDA 1986, as amended, with the 
Secretary's Review Assessment of the study. This study and Review 
Assessment do not constitute a Chief's Report. The SFWMD's study 
addresses water storage and conveyance needs in the Everglades 
Agricultural Area south of Lake Okeechobee. In the Review Assessment, 
the Secretary found South Florida Water Management District's proposed 
project to be feasible from an engineering and construction viewpoint, 
but did not make a determination of the economic or environmental 
feasibility of the plan. The Review Assessment detailed a number of 
significant concerns with the study, provided recommendations 
concerning the plan and design of the proposed project and specific 
conditions that must be met to proceed to construction.
    Mr. Chairman, this concludes my statement. I appreciate the 
opportunity to testify today and look forward to answering any 
questions you may have.

    Mr. Graves of Louisiana. General, thank you.
    We're first going to go to the gentleman from Arkansas, Mr. 
Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    And good morning, General Spellmon. I want to thank you for 
being here today. And first, I want to express my gratitude for 
the recent Chief's Report on the Three Rivers project in 
Arkansas. It is a critical project to keep navigation on the 
Arkansas River active and robust.
    In the northern part of my district, I have had 
constituents tell me they believe there have been more major 
flooding events in the last few years, generally speaking, than 
historically has been the case. They have been told that the 
Corps and perhaps others in Missouri have been actively 
cleaning out some of the rivers and tributaries in southeast 
Missouri. This could obviously result in more water getting 
into my district much faster. We haven't had the same kind of 
dredging in northeast Arkansas, and so flooding has been a 
problem there more frequently.
    I wonder if you can comment on any of this and give me some 
clarity as to what may or may not be going on with regard to 
that situation?
    General Spellmon. Sir, I am not familiar with the situation 
as you have described it, as I have been in my job for about 90 
days now. I welcome the opportunity to come out to your region 
and work with our regional commanders and our district 
commanders to get more detail and welcome the opportunity for 
my staff to follow up with yours on a more complete answer.
    Mr. Crawford. Outstanding. That would be very helpful. We 
have a problem in our State where we don't do a comprehensive 
approach and somebody does something upstream and it affects 
someone downstream. And I am just thinking maybe we could 
harmonize with our neighbors to the north in more of a 
comprehensive approach, and I certainly would welcome you to 
the district to do that.
    General Spellmon. Yes, sir. Thank you.
    Mr. Crawford. Thank you. I yield back.
    Mr. Graves of Louisiana. I recognize Mrs. Napolitano.
    Mrs. Napolitano. Thank you.
    This subcommittee has passed the WRRDA 2014 and WRDA 2016, 
and they were enacted into law. And it speaks to the Members of 
Congress' desire to respond to the water resources needs of our 
communities but also to the demand for increased investment.
    Can you please describe for the subcommittee the scope of 
the Chief's Reports and Post-Authorization Change Reports that 
the Corps expects to send to Congress these coming months?
    General Spellmon. So, ma'am, if I understand the question, 
you are asking me to briefly describe each of the Chief's 
Reports?
    Mrs. Napolitano. Not each one, but what is the scope of 
them? What is more important? What has been salient in the 
recent submissions to you?
    General Spellmon. So, ma'am, let me tackle it this way. As 
I mentioned, three of the Chief's Reports deal with navigation. 
These are essentially deepening of different segments of the 
projects in Norfolk, San Juan, and Seattle Harbors. We have an 
ecosystem restoration project in, as I mentioned, the resacas 
in Brownsville, Texas. These Chief's Reports go under 
concurrent review, both by Congress and the administration.
    Mrs. Napolitano. OK. I am interested in more detail on one 
of them, but I will ask for it later.
    In the--a significant amount of time this year to evaluate 
the Federal Government's response to the hurricanes, Maria and 
Harvey, of course, Puerto Rico stands out and the U.S. Virgin 
Islands where people lost their lives and it took 11 months to 
restore power to the entirety of the island. Can you provide an 
update of the Corps' activities in Puerto Rico and Virgin 
Islands related to the 2017 hurricane?
    And additionally, the hurricane season has left us largely 
unscathed thus far. I believe it is imperative we apply the 
lessons learned from those hurricanes to prepare for future 
storms. To that end, can you please describe activities the 
Corps has undertaken or plans to undertake to better prepare 
our Nation for future hurricanes this coming season?
    General Spellmon. Yes, ma'am. I would start out by saying 
that any loss of life is tragic and that our hearts and our 
thoughts are with those families that suffered the loss of 
loved ones in the storms of last year.
    Ma'am, I would refer you to the GAO report that came out--I 
saw it for the first time yesterday. It came out this month--
that effectively describes the conditions that the Corps and 
our other FEMA partners were operating in. First of all, we had 
concurrent and overlapping storms. Harvey, Irma, and Maria were 
disaster number 25, 26, and 27 of----
    Mrs. Napolitano. What about the preparations?
    General Spellmon. Yes, ma'am. So we go through a very 
detailed AAR process and capture lessons learned from our 
performance last year in disaster response. We do AARs, After 
Action Reviews, at the district level, the regional level, and 
at the headquarters level. I will tell you, the actions that we 
have taken already this year include prepositioning of people 
well in advance of the storm.
    So, for example, Hurricane Lane here a couple of weeks ago 
that approached the main island of Hawaii. We sent in advance--
long before that storm was scheduled to make landfall--our 
roofing teams with an advance party of our contractor. We run a 
model. We can predict what communities were going to have 
trouble, and we had people on the ground before landfall 
looking and getting assessments and inventorying of our stocks 
to ensure that we could respond in a more rapid fashion.
    Mrs. Napolitano. All right. That is good to hear, but I am 
still worried that we are not prepared enough in rebuilding to 
withstand future hard hurricanes.
    General Spellmon. Right. So I would thank you, Madam, as 
well as all of Congress for the very generous appropriation in 
the Harvey, Irma, Maria storm supplemental. Congress gave us 
$17.4 billion, and, ma'am, that is going to fund 235 projects 
in 33 States to add resilience to our communities.
    We are taking this very, very seriously. We know we have to 
deliver for the Nation. In fact, we have a lot of our senior 
staff meeting in Dallas, Texas, this week as we outline that 
program, because we want to get these projects in the ground as 
soon as possible.
    Mrs. Napolitano. Thank you very much, sir.
    I yield back.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to Mr. Gibbs from Ohio.
    Mr. Gibbs. Thank you, Chairman. Thank you, General, for 
being here.
    On the Soo lock, we have got the economic validation study, 
the executive summary here. This came in June, I believe, of 
this year. My understanding is that the full report hasn't been 
released because of security sensitive redactations. What's the 
status of getting the full report to the committee?
    General Spellmon. So, sir, we received the report from our 
Mississippi Valley Division and General Kaiser, and that report 
is undergoing review in my office. We are going through that 
with a fine-tooth comb before we forward that on.
    Mr. Gibbs. OK. Also, you have to refresh my memory, I think 
in your testimony you talked about the one lock there at Soo, 
the St. Marys--Soo lock. What is the status? Because I am 
looking here on this executive thing on the benefit-cost ratio. 
I remember in the past, we have had discussion about OMB and 
the Corps and where we stand on all this, on this benefit-cost 
ratio to move this project forward.
    General Spellmon. Yes, sir. So the analysis that our team 
has done developed a benefit-cost ratio of about 2.42, if my 
memory serves me correctly.
    Mr. Gibbs. Yeah.
    General Spellmon. I think some of the differences that we 
have with the local sponsor is how we calculated that economic 
benefit. So I am happy to go into detail, either here or 
separately, on the details of that difference and how we are 
continuing to gauge and work through that.
    Mr. Gibbs. OK. So you anticipate this moving forward? I 
have been a big advocate that this Soo lock needs to get done. 
So your anticipation is that we are on the right track?
    General Spellmon. Yes, sir.
    Mr. Gibbs. OK.
    General Spellmon. Yes, sir, we are.
    Mr. Gibbs. OK. Thank you. I yield back.
    Mr. Graves of Louisiana. The gentleman from California, Mr. 
Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    General, thank you very much for all the work that you are 
doing, and congratulations and condolences on your new job. You 
are going to have your hands full.
    You have been very, very helpful to me in the Sutter Basin 
issue. I don't suppose you had been in your job too long before 
I had the opportunity to talk to you about it. And you have 
been very creative, and I very much appreciate that.
    We are down to the last wire of this. And if you could turn 
your attention to a vertically integrated process, I think we 
can get this thing done for the next flood season and complete 
a 40-mile project in the Sutter Basin. So I really appreciate 
your effort on that. So we will move that along, and it has 
been a very good process in which the Corps, working with the 
local entities, has been able to successfully move in a very 
rapid way. Also, the Marysville project, two very important 
projects in our area. And so my appreciation and thanks to you 
and to the district, as well headquarters here.
    The section 204 authority fits right into this, and so here 
we go. Maybe next time we can write legislation with more 
clarity and not run into the problem that we have had here. I 
guess that is our problem.
    This is really addressed to Mr. Graves and to the chairman 
and the ranking member of the committee. WRDA is in process, 
the conference committee is moving along. I would like to draw 
the attention of the committee and certainly to the conferees 
to the necessity of maintaining section 310 of the House bill. 
I don't know, the Senate sometimes is a bit difficult to deal 
with, but section 310 authorizes the Three Rivers Levee 
Improvement Authority, and that is the last 3 miles of the 
project on the Yuba River, at no cost to the Federal 
Government. It is simply the authority to get that project 
done.
    And finally, I know this is going to be an issue all of us 
are going to deal with so we may as well get it on the table, 
and that is should the Corps of Engineers continue as it is 
today or should it be reorganized? My own personal experience, 
having dealt with the reorganization in 2010 in the Department 
of the Interior where the mine safety programs were dispersed 
from the Department of the Interior and sent to multiple 
places, it created a decade of chaos. And so I would suggest 
that we stay with where we are and not deal with any further 
effort to dismantle the Corps of Engineers.
    So I am taking the opportunity to express our position, 
some of which is of interest to the members of this committee 
and beyond.
    With that, I think I have just about consumed 3 of my 5 
minutes. So let it go at that.
    Again, General, thank you very much for your work on the 
Sutter Basin project. I appreciate it, appreciate your 
willingness to be creative and find a way past some legislative 
glitches that unfortunately we created for ourselves. So thank 
you.
    With that, I will yield back.
    General Spellmon. Thank you, sir. I look forward to working 
with you.
    Mr. Graves of Louisiana. I want to thank the gentleman from 
California.
    And just very quickly, section 310 of the House bill 
pertains to the Yuba River. That is a project that we have been 
discussing with the Senate together with our counterparts, and 
we have been working to defend the House bill which we think 
has very good policy, which would include section 310, but we 
will follow up with you directly as we continue discussing this 
with the Senate. But I will say that we are united with Mrs. 
Napolitano in pushing the House bill which would include 
section 310.
    Mr. Garamendi. There is no doubt in my support for your 
position, which we all created here, and the hard work that you 
are doing. I didn't mean to indicate anything otherwise, but to 
put this on the record that this is important, as is the bill 
that we put out, which was, in my estimation, perfect.
    Mr. Graves of Louisiana. I want to thank the gentleman from 
California for his contributions to the bill, and we will 
continue to work with you. Mrs. Napolitano and I have both 
advocated for the inclusion of that project in the final 
version, and we will continue to work together to push the 
Senate on that. So thank you.
    We are going to the gentleman from California, Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    General, good morning. It is good to see you this morning. 
Glad to see the Chief's Report for phase 1 to the Lower San 
Joaquin River is now signed and included in the WRDA bill. This 
is a great cost-benefit ratio.
    But more importantly than the cost benefit, this is also 
the area where the Corps is going to build their first VA mega 
clinic. And so while we have got 262 critical infrastructure 
sites in that area, 12 which are considered essential to life 
and safety, we also have Sharpe Army Depot, and now we are 
going to build a VA hospital.
    So my question to you is, as we are looking at--again, 
appreciate the fact that we signed phase 1. It has taken way 
too long. We have been working on this for quite some time, but 
because we are building the new mega clinic, and now we have 
got phase 1 in the works, it is time to get quickly on to phase 
2. And I want to see the Corps request funding from Congress so 
that we can do our job here and expedite this as well.
    So my first question is, is the Corps ready to request 
funding on phase 2 of this project?
    General Spellmon. Sir, my understanding is that phase 2 is 
not included in the scope of the current effort by the non-
Federal sponsor. We would ask that the non-Federal sponsor give 
us their desire to move forward with phase 2 and then we can 
take the necessary next steps, sir.
    Mr. Denham. Thank you. And I look forward to having the 
Corps come back out again and have this discussion at the local 
level. I think it is critical to understand specifically what 
is happening on the ground.
    But from a national perspective, one thing that is very 
different here versus any other project in the country is this 
is the Corps' first big project where they are going to build a 
mega clinic for the VA. So I do think that there is some 
uniqueness in this.
    One of the other challenges that we have with moving 
forward is the Executive Order 11988. Can you commit to me that 
the Corps will quickly address and resolve that Executive order 
issue, the question surrounding the RD 17 area and move forward 
with the second phase of this feasibility study? I know that 
our locals have to do requests, but we have an issue with the 
Executive order that we have got to resolve as well.
    General Spellmon. Yes, sir. You have our commitment, once 
we receive the request from the non-Federal sponsor, we will 
take the necessary next steps.
    Mr. Denham. Thank you, General.
    I yield back.
    Mr. Graves of Louisiana. Thank you very much, Mr. Denham.
    We are going to go to the other gentleman from California--
we have got a triple here--Mr. Lowenthal.
    Dr. Lowenthal. Thank you.
    And before I begin, I would like to preface my remarks by 
agreeing with Representative Garamendi in complimenting the 
chair of the subcommittee and the ranking member for working 
together on the WRDA project. I think this is a model for the 
way the legislature should work, and I am proud to be part of 
this subcommittee and to state that.
    Mr. Graves of Louisiana. Would the gentleman yield?
    Dr. Lowenthal. Yes.
    Mr. Graves of Louisiana. I just want to make note, this 
bill, this is a major infrastructure bill. This passed the 
House of Representatives by a vote of 408, and there were only 
2 confused people.
    So I yield back.
    Dr. Lowenthal. I am glad to say, on this occasion, I was 
not one of those two confused people. Not saying that on other 
occasions I haven't been confused.
    General Spellmon, first, I want to thank you for the Corps' 
important work on the Chief's Reports that were submitted to 
Congress this year. I also congratulate you also on this 
assignment.
    I am the cochair of the Congressional PORTS [Ports 
Opportunity, Renewal, Trade, and Security] Caucus. And I 
applaud the efforts to complete reports on the critical 
navigational improvements in both Seattle and in Norfolk. That 
will increase the flow of commerce at these ports, and I 
strongly support that and I strongly support the Corps' work.
    But closer to home, I know that the Port of Long Beach is 
working with its L.A. District on a navigational improvement 
study, but they have requested a waiver to allow the study to 
exceed some limits of the 3 x 3 x 3 SMART Planning process. The 
waiver will make sure that the channel deepening study moves 
forward in tandem with the ports master plan, that is the 
reason that they are asking, to make sure that the master plan 
and the 3 x 3 moves. I would appreciate just your full 
consideration of this request.
    General Spellmon. Sir, thank you. We fully understand and 
recognize that not every project, not every study neatly fits 
within the confines of 3 x 3 x 3. We go through a process to 
evaluate what we will get from the district, and then I meet 
with Assistant Secretary James every week and we talk through 
these requests as they come in.
    Dr. Lowenthal. Thank you. And as one of the nonconfused 
Members of Congress, I yield back.
    Mr. Graves of Louisiana. The gentleman from Texas, Mr. 
Babin, is recognized.
    Dr. Babin. Thank you, Mr. Chairman.
    General, welcome. Thank you for being here. I also want to 
thank you for visiting my district in my region recently. And I 
appreciate your service too. I notice a Purple Heart ribbon on 
your chest there. Thank you. I don't know the details of that 
but appreciate your service.
    One year ago today, my district and most of southeast and 
coastal Texas was still reeling from the devastating effects of 
Hurricane Harvey. I wanted you to please share briefly some of 
the specific lessons that the Corps has learned from our 
experience with this terrible storm and how you have applied 
those findings to improve your practices and protocols for your 
response to the inevitable next storm, if you don't mind, just 
briefly. I appreciate that.
    General Spellmon. Yes, sir. Certainly, 60 inches of 
rainfall over the city of Houston and the surrounding areas was 
unprecedented. So, yes, sir, we have done an early set of After 
Action Reviews; as I mentioned, both our Galveston District, 
our southwestern division, and also at the region.
    I think one of the key takeaways that we have shared 
amongst the command is the importance of communication with 
partners above and below the other projects. So we believe the 
district and the division went through means to talk to 
everyone affected, or potentially affected by this 
unprecedented rainfall, but the perception exists that we did 
not. So we have got to double back on our efforts and look at 
our processes for storms of this nature when they occur.
    Dr. Babin. Right, OK. Thank you.
    And then the second thing, I am aware of various 
procurement practices at the State and local levels that are 
really artificial barriers to competition for new and 
innovative materials on projects, and that is why I introduced 
a bill, H.R. 5310, the Municipal Infrastructure Savings and 
Transparency Act, to ensure open competition and competitive 
bidding in infrastructure projects that receive Federal 
funding. And that will help lower costs and provide greater 
choice of new and innovative materials for engineers.
    And I was hoping that the Corps might help me, commit to 
helping me to identify some of these State and local barriers, 
and work with me on recommendations to eliminate them so that 
we can save taxpayer money. I want to ask you, what are the 
specific programs that the Army Corps already has in place to 
spur innovation and infrastructure investments in technologies 
and any comments you might have there?
    General Spellmon. Sir, just a couple. So we recognize that 
with this record level of appropriation in storm supplemental 
that we have been trusted with, that our standard project 
management processes are not going to allow us to deliver on 
time for the Nation. One of the areas we know we want to--we 
have got to get better at is innovation, both in our 
acquisition strategies, in our designs, and certainly in the 
materials that we use.
    So we have a set of labs, as you know, sir, throughout the 
Corps, and we have tasked them to be able to help us. We want 
to work with industry, want to work with private partners such 
as the ones that you are mentioning, sir, so we can get better 
in this regard. You do have our full commitment.
    Dr. Babin. I appreciate that.
    So how does the Corps ensure competition in contracts to 
maximize taxpayer savings and help with investing in more 
projects? What are some of the things that you already do?
    General Spellmon. Yes, sir. So obviously, we are bound by 
the Federal acquisition regulations in all of our acquisition 
processes. Having said that, some of the things that we want to 
take on to allow us to speed the delivery of project is not 
have 43 districts, each going after separate acquisition 
strategies for the 253 supplemental projects I mentioned 
earlier. We want to get into things we call multiple award task 
order contracts. We can do them at the regional level. We are 
even discussing doing them at the enterprise level, sir, again 
to expede the ability to get moving dirt, as Assistant 
Secretary James would describe it.
    Dr. Babin. Absolutely. We want the latest technologies to 
be utilized to save taxpayer money, so we sure hope so.
    And that is all I have. I yield back, Mr. Chairman.
    Thank you, General.
    Mr. Graves of Louisiana. The gentleman from Texas, Mr. 
Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    General Spellmon, welcome. Glad to see you here. I have got 
five ports in my district, three coastal counties of Texas 
starting at that other foreign country, Louisiana. We were 
ground zero for Harvey flooding. We have got more ports than 
any other Member of Congress: Port of Beaumont, Port of Port 
Arthur, Port of Texas City, Port of Galveston, and then Port of 
Freeport. Sabine-Neches Waterway is the longest waterway in the 
gulf coast, second only to the Mississippi River.
    We have a Chief's Report, I believe from 2014, WRRDA, on 
deepening the Sabine-Neches Waterway. And you may be aware that 
the Port of Beaumont moves more military personnel equipment 
than any other port in the country. So I would argue that 
national security is extremely important. It shoaled in bad 
from Hurricane Harvey, all the rain from Hurricane Harvey, as 
you know, was more of a rain event for that part of the Texas 
gulf coast than a wind event. There is a lot of lightering 
having to go on because of the fact that it shoaled in. The 
channel needs to be deepened.
    We have an approved Chief's Report, and I didn't see it in 
the PDF today that you offered at the end of your comments, the 
updated 2018 PDF. Why is that?
    General Spellmon. Sir, if you are referring to the Sabine 
Pass-Galveston Bay----
    Mr. Weber. No. Unless that is including--I read it very 
briefly. I know that there is a coastal storm barrier 
protection study going on, because as Congressman Babin said, 
it is not a question of if we get another hurricane, but simply 
when. And a lot of jet fuel and energy is produced on that part 
of the Texas gulf coast in his and my district combined.
    So it is extremely important that we don't have a release 
out in the Galveston Bay if something destroys some of the 
tanks holding oil or other noxious chemicals, but also the fact 
that we want to get the Sabine-Neches Waterway dredged down to 
close to 50 feet. I don't see that anywhere in your remarks 
here today.
    General Spellmon. No, sir. The Sabine Pass-Galveston Bay 
was funded as new construction in the storm supplemental, total 
of----
    Mr. Weber. Right. Well, that is actually something 
separate. There is a Chief's Report from WRRDA 2014 on the 
deepening of the Sabine-Neches Waterway. And I looked at your--
there are 77 pages in the PDF at the end where it says 
``Chief's Reports Updated 2018.'' And I see the one that you 
are talking about which is the study being funded, but I do not 
see the Chief's Report for the Sabine-Neches Waterway. Can you 
shed some light on that?
    General Spellmon. Sir, I will follow up with you. I will go 
back and take that and we will follow up with your staff.
    Mr. Weber. Yeah, let's find that out. I also see the one 
there for Galveston Channel Extension. There is also--there is 
a Chief's Report, thankfully, on the Galveston Channel 
Extension and also the one Sabine Pass to Galveston Bay that 
you cited. But please follow up on that because that is very, 
very important to our area.
    General Spellmon. We will, sir.
    Mr. Weber. You have been there 90 days, you said?
    General Spellmon. About 90 days, yes, sir.
    Mr. Weber. About 90 days. You will find out that the BCR on 
the Sabine-Neches Waterway is--some might say it is a little 
lower than they would like to see it. And, obviously, we would. 
There is billions of dollars of development along that long 
waterway. It has the most developable area, and the fact that 
it is so instrumental in national security, I don't know how we 
figure that in, how do we get that BCR up, because it is 
strategic to our country's defense. A MARAD fleet is out there. 
We have got some mothball ships out there, if you want to call 
them that.
    So please check in to that because that is extremely 
important. The Galveston Channel Extension Project also is 
important to us. So if you could check on those and get back to 
our office, it would be greatly appreciated.
    General Spellmon. Sir, I will. And I had a great visit down 
to that region here a couple of weeks ago. And you mentioned 
Beaumont. I am certainly familiar with the importance of 
Beaumont from deploying out of Fort Hood a number of times.
    Mr. Weber. Right. Well, please come back. We have got good 
fried shrimp and good seafood gumbo. We would love to show you 
around and show you how important it is. Just please get back 
to us. Thank you.
    General Spellmon. Yes, sir.
    Mr. Weber. I yield back.
    Mr. Graves of Louisiana. Thank you.
    We are going to go to the gentleman from Florida, Mr. Mast.
    Mr. Mast. Thank you, Chairman. I appreciate it.
    Thank you, General, for taking the time today. I appreciate 
you speaking with me before this. I appreciate all your work 
and the Corps' work on WRDA 2018, the work with the southern 
reservoir, the EA Reservoir there, the work in working to help 
us get an update to the Lake Okeechobee regulations scheduled, 
the Kissimmee River restoration, all of it, really appreciate 
the partnership on that.
    All of these things that you have worked with my office on, 
they surround what is known as management of Lake Okeechobee. I 
know you are very familiar with this. And I wanted to ask some 
questions about Chief's Reports, specifically a little bit on 
that process. Are old Chief's Reports ever updated?
    General Spellmon. Sir, as we get closer to appropriation 
on, say, a dated Chief's Report, they may have to go through a 
limited reevaluation. Economics may need to be updated. There 
may be design changes or new materials, new technology that may 
be incorporated, but there can be a requirement to update the 
report, sir, before we move forward with construction.
    Mr. Mast. But being dated, that is something that you would 
say, we look at this and we can say this is dated, it should be 
updated, that is common practice or----
    General Spellmon. Yes, sir, it is.
    Mr. Mast [continuing]. Within the parameters of being 
reasonable?
    General Spellmon. Yes, sir.
    Mr. Mast. The Chief's Report for the development of the 
central and south Florida project that governs all of this, 
that is a Chief's Report from 1948. Would you say that there 
might be room to update a Chief's Report from 1948? It is what 
specifically provides that the priorities are flood control; 
water supply for municipal, industrial, and agricultural uses; 
prevention of saltwater intrusion; water supply for Everglades 
National Park; and protection of fish and wildlife, but it is 
from 1948.
    General Spellmon. Yes, sir. So I am not familiar with the 
1948 central and south Florida project. I am more familiar with 
some of the more recent efforts under the Central Everglades 
Restoration Program and the 68 projects associated with it to 
get after some of the water supply and water quality issues in 
your region.
    Mr. Mast. And I am glad you brought up water quality 
issues. It matters to me to hear you say that. It is important 
to my community to hear you mention water quality, because 
sometimes that is often left out. These other issues that I 
just mentioned are important, but, to me, when we are talking 
about these Chief's Reports, it is an issue that the Chief's 
Report mentions very specifically the things that will be 
managed and it doesn't mention anything about the water 
quality, which in many cases is a State issue, but you did 
mention it is an issue in what is going on with central and 
southern Florida policies.
    So in that, I would ask, are you aware of some of the water 
quality issues? One of our most recent tests, which is in line 
with other tests, it said that the sample was 495 parts per 
billion of microcystin, an algae, a toxin. That is what is 
being discharged out of the lake into an epicenter of human 
population. That is an issue of water quality.
    And so I would ask, do you think that the 1948 Chief's 
Report could be updated, it could be looked at as dated and 
there is potential to put something in place that mentions 
health and human safety as being a factor?
    General Spellmon. Yes, sir. Certainly, there is always room 
for updating. I would just--I want to be clear, we don't have 
the authority to regulate water quality. The State's 
responsibilities for water quality in your region are very 
clear in the Clean Water Act and, as you mentioned, the central 
and south Florida authorities. But, sir, no, this is a 
partnership going down to Central Everglades Restoration 
program, we want to do our part with the State and all of our 
partners to help those communities.
    Mr. Mast. Well, in that, in talking about the balance 
between State and Federal relationship there, the Army Corps 
feasibility study from 1999 on this issue, it reads: Water 
quality improvement must be an integral part of all hydrologic 
restoration. It also reads: Several plan components and other 
project elements are included to improve water quality 
conditions. It also reads: Water Resources Development Act of 
2000, which established the Central Everglades Restoration 
Project and Public Law, it lists protection of water quality as 
a specific authorization.
    So water quality is the intent of Congress. I just listed 
off three specific places. It is clear that water quality is 
the intent of Congress. And so it is in that that I would like 
to ask you, can you work with me on addressing the fact that 
this issue, this human health and safety issue that is related 
to water quality is not listed in this Chief's Report? Can your 
office--can the Corps work with me on making that a piece of a 
Chief's Report when managing this system?
    General Spellmon. Yes, sir. I would welcome this dialogue 
with you and your team.
    Mr. Mast. Thank you. I yield back.
    Mr. Graves of Louisiana. Thank you, Mr. Mast, vice chairman 
of the subcommittee.
    We are going to go to the gentleman from California, Mr. 
LaMalfa.
    Mr. LaMalfa. Yet another Californian, Mr. Chairman. Thank 
you.
    As we know, farming agriculture is a major economic 
activity in the U.S., totaling $100 billion in exports every 
year. And the Army Corps and EPA have been making it very 
difficult to responsibly use land when they regulate the Clean 
Water Act the way they have, especially in my district in 
California.
    They have been unfairly attacking farmers and legitimate 
land users by retroactively claiming that ag land is a wetland 
or that normal farming practices exempt under the Clean Water 
Act suddenly require permits, otherwise known as previously 
converted crop land. Should someone decide to go along and 
pursue that permit, it might take 3 years for them to get it 
off their desk, 3 crop years lost for them to move this permit 
that they are already exempt from having under previous 
converted crop land, et cetera.
    So what I am asking you, sir, is will the Army Corps and 
EPA work with the other land management agencies to make their 
jurisdictional determinations so that land users have some idea 
where to direct their issues when someone suddenly decides a 
permit is needed?
    General Spellmon. Sir, yes. So the program we started here 
just in the last 90 days in the Corps is taking a deep dive, a 
hard look at every longstanding permit. I have some permit 
applicants that have been outstanding for 5 years. We are doing 
a detailed look at every one of those and why those permit 
actions have been suspended. There is a variety of reasons, 
but, yes, sir, you have our commitment to move on these 
decisions in a much more rapid fashion.
    Mr. LaMalfa. OK. You promised to move more quickly on the 
permits, but what about the concept that the permit wasn't 
needed to begin with under exemptions clearly spelled out in 
the Clean Water Act and reinterpretations done by some 
divisions of the Corps that seem to have gone off on their own 
tangent?
    General Spellmon. Sir, I am not familiar with the details, 
but you have our commitment that we will look into this.
    Mr. LaMalfa. I appreciate that. Check it out in northern 
California, via Sacramento, the Redding office, and there is a 
lot of action happening in Tehama County. For example, disking. 
You are familiar with disking in agriculture?
    General Spellmon. No, sir. No, sir.
    Mr. LaMalfa. OK. Well, I will explain it to you. It is 
similar to plowing, only a disk is an implement towed behind a 
tractor that has approximately 40, maybe 50 round disks on it 
that rotate as you are pulling it through the field. It turns 
the soil slightly and, you know, reincorporates. Disking is 
used by the U.S. Fish and Wildlife Service for wetland 
management, it is used for mosquito abatement to prevent more 
breeding of mosquitoes, protection from invasive plant species, 
used to recycle nutrients in the soil to keep the land 
productivity high, and is used by almost every agency and 
organization that has something to do with land use for a 
variety of reasons, but only to very slightly if at all alter 
the land.
    So we have agencies using this as a tool that they need, 
and I am glad they do, but the Corps and EPA have attempted to 
say disking is an activity that requires a permit by a farmer 
because it creates slight mounds and therefore changes the 
topography. What we heard in a couple of these cases is that 
when you have gone out and disked the field, that because it 
creates these mounds, that they are looking at this as a high 
land and a low land that is now regulatable by some of the 
people in the division here.
    So do you believe that really should be a standard of the 
Army Corps?
    General Spellmon. Sir, I am not familiar, I have not run 
across this particular issue set before. And I would like the 
opportunity to get back with my staff and get some additional 
detail of decisions, procedures that are being made in the 
field in this regard.
    Mr. LaMalfa. We would certainly be happy to supply you that 
information too. Please get back to us.
    So are you familiar with the Duarte Nursery settlement that 
happened in California?
    General Spellmon. No, sir.
    Mr. LaMalfa. OK. Well, they finally gave up and settled for 
over $1 million after having tilled their land--after it had 
been idle for several years, with the idea that when land is 
idle, you know, farmers tend to fallow their land, that now 
that requires a permit and that they had somehow disturbed a 
wetlands or a waterway to the United States.
    So do you think the Army Corps is going to extend that 
decision to more and more retroactive activity by other farmers 
around the country?
    General Spellmon. Sir, I don't know the answer to your 
question. We will get back with your staff and with you on this 
issue.
    Mr. LaMalfa. OK, thank you. Because this has really been an 
out of control situation. And not with the intent of the law, 
the intent of Congress, and I certainly think at some point 
your organization, so I would really ask you to look into it, 
especially the Sacramento division and what their activity has 
been in northern California.
    General Spellmon. We will, sir.
    Mr. LaMalfa. Thank you.
    General Spellmon. Thank you.
    Mr. Graves of Louisiana. Thank you, Mr. LaMalfa.
    I want to make note that that is a problem in Louisiana as 
well, and I have also heard from other Members about it, 
General.
    We are going to go to the gentlewoman from Connecticut, Ms. 
Esty.
    Ms. Esty. Thank you very much.
    So, General Spellmon, I had two points I wanted to raise 
with you. And, again, thank you for appearing before us today. 
I understand that the Corps is proud of efforts it has made to 
publicize when deadlines are, but I have to tell you, in my 
district, there are a number of organizations that had been 
looking to and working with my office to try to figure out 
whether it is appropriate to request a grant. They did not 
realize how early the deadlines are.
    So I would respectfully urge that more be done, that 
efforts be done with every Member of Congress so that we can 
help get them out to our communities, nonprofits, councils of 
government, counties, because those of us on the committee even 
have communities that were not aware of this or entities within 
our communities. So I think we can do a better job, and I am 
just telling you anecdotally, and I have been on this committee 
for almost 6 years now and on this subcommittee for 6 years, 
and we had organizations and nonprofits and things that had no 
idea when the deadlines are, and they are early.
    If you look at it in line of the pretty early deadlines and 
people have a sense of when other deadlines are, and since they 
are as early as they are, I think we can do a better job. And I 
am sure that is in the Corps' interest, and just wanted to give 
you that----
    General Spellmon. Yes, ma'am.
    Ms. Esty [continuing]. Feedback and see how we can help on 
that.
    The second was, again, on coordination and sort of some of 
the nontraditional uses. I am going to use an example, in my 
district, we have a dam in Thomaston. The community is looking 
all over the Northeast to do greenways as part of connecting 
communities to be able to do bikeways, walkways, reclaim our 
rivers, et cetera. Well, a lot of that in a State like mine, in 
Connecticut, we have a lot of dams. We have a lot of water in 
Connecticut. Quite unlike my colleague, Mr. LaMalfa, we have 
different issues. We have too much water and the risk of aging 
dams.
    We are having a little bit of trouble with getting 
proposals like that considered. So I would ask that to 
recognize that depending on the part of the country, it would 
be helpful to local communities to consider a little more 
flexibility for community involvement and appropriate usage. 
And we have met and we have got folks meeting soon with the 
Corps again to talk about this. I have already met with them 
regionally, but I think that will help the public understand 
that the Corps is there to serve our purposes. But that also 
includes, when appropriate, constructive use of areas, and so 
we have several that are things like greenways, in addition to 
your traditional flooding area.
    So we will, the Fifth District of Connecticut will be back 
with proposals from the Naugatuck Valley Council of 
Governments, from New Britain, Connecticut, which has some dam 
work and some dredging that they are looking for help with 
permits. And, again, we have worked on continuing authorities 
projects. I do want to let you know we are eager to see more 
funding there, cutting that redtape, which we are working on 
raising those limits so that we can get more of those projects, 
again, in conjunction with our communities, getting these 
projects moving. And we have got a lot of aging dams in my part 
of the world. There is not enough money to go around, and we 
are going to have to be creative and collaborative to make sure 
these projects get done in a way that works to the benefit of 
communities as well as protecting the public.
    So, again, I want to thank you. We have had a good 
relationship with the Corps during my time on the committee, 
but we can always do better.
    General Spellmon. Yes, ma'am. And thank you for sharing 
both of those with me. And we will follow up with our district 
and our regional team on both of these topics. Thank you.
    Ms. Esty. Thank you. And I yield back.
    Mr. Graves of Louisiana. Mr. Mitchell.
    Mr. Mitchell. Thank you, Chairman Graves, for allowing me 
the opportunity to speak at this hearing.
    And thank you, Major General Spellmon, for coming today. I 
also thank you for your service to the Nation and your 
continued service in the Corps of Engineers. I also appreciate 
the efforts of your staff before you came even. They met with 
me a couple of times to look at the economic analysis, to talk 
about the importance of Soo locks.
    As we talked about when we started, I have a fair amount of 
water around me in the Great Lakes, not as much as some of my 
colleagues here, but important water.
    This hearing is an example of Congress and the 
administration working together to make significant 
infrastructure improvements to this Nation. As the chairman 
notes, only two wayward Members didn't quite understand the 
importance of the Water Resources Development Act, and that is 
quite a feat around here.
    We are here to talk about your updated reports, and one in 
particular is interesting to me, the Soo locks. The Soo locks 
is a critical source of infrastructure in this Nation. In 1985, 
Congress authorized a new lock, a 1,200-foot lock, because we 
only had one, the Poe lock, right now as you are studying your 
notes. Nearly all domestic iron ore goes through that lock 
because it accommodates 1,000-foot freighters. It is a national 
security concern, it is an economic concern, which we talked at 
length to your staff. And, again, my appreciation to them for 
sitting down the extended time they did in talking about the 
economic assumptions that were going in that report.
    While this is my first term in Congress and my first term 
obviously on the committee, since day one, the Soo locks were 
something that were important in Michigan in this country. This 
isn't the first time it has been discussed in the 115th 
Congress. Also it was discussed, as you are aware, I think, at 
the House Armed Services Committee that I sit on, and became a 
component of the report for the NDAA this year.
    I was also pleased that the President decided to speak up 
and say that we needed to deal with the Soo locks, that we 
could no longer ignore the fact that if the Poe lock goes down, 
11 million people lose their jobs in 90 days, we can't move 
iron ore nor mine other trade. So I appreciate all your work, I 
appreciate the study you have done. And we will work with you 
and the Army Corps and other Members to ensure that we secure 
the funding we need to go to the next step, which is some of 
the detailed studies you need to do for engineering so we can 
build that lock that we promised this Nation in the mid-1980s 
we would do, and we will finally move forward.
    Please be aware and tell your staff if they need any 
assistance, any feedback, that in Congress, I certainly hope to 
stick around and will do anything I can to support the efforts 
for the Soo locks to continue the development of that 
additional lock. Any feedback you have on that issue, General 
Spellmon, I appreciate.
    General Spellmon. First of all, I want to thank you. I have 
been to the Soo locks on a number of occasions, so we do 
understand the importance, as does the Chief, our Assistant 
Secretary, and, frankly, all of the Army understand the 
importance of that waterway to the Nation. We want to do this 
and we want to do this work. We thank Congress for the funding 
to do the major rehabilitation on the existing lock, and we 
look forward to getting the funds and the appropriation to 
construct the new lock.
    Sir, we would love to continue the conversation and 
dialogue with you and your staff on the economics study that we 
have done. I know there is some disagreement, but I don't think 
there is any disagreement on the importance of this piece of 
infrastructure to the Nation.
    Mr. Mitchell. Well, there may be some differences on the 
details in economic study as I will use the term, ``close 
enough for government work,'' and now let's get on with 
actually doing the work. Next time you decide to go to the Soo 
locks or your staff, let my staff know, I will wander up there. 
It would be nice if we didn't do that in the dead of winter, 
but happy to go to the Soo locks with you and talk further 
about the importance of that, not just for our State, and the 
Great Lakes, but for this Nation. Building a lock is critical.
    General Spellmon. Yes, sir.
    Mr. Mitchell. Thank you very much. I yield back. Thank you, 
Mr. Chair.
    Mr. Graves of Louisiana. The gentleman from Georgia, Mr. 
Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    Thank you for being here today. Thank you for your 
partnership on all the projects you are working on down in 
Georgia. Of course, we are particularly proud of what is going 
on in Savannah. It was a long time coming, and you all never 
gave up on making that happen. And we are about to have real 
economic results for the entire southeastern United States, and 
I thank you for that.
    What I really want to talk about, though, in terms of 21st-
century policy is return flows. I represent a community in 
Georgia, County of Gwinnett. They spent $1 billion on a water 
treatment plant to pump the water back in to Lake Lanier, our 
core lake, cleaner than we took it out. In fact, we sit on the 
Continental Divide. If you dump your cup of water out on one 
side of the county, it runs into the gulf. And if you dump your 
cup of water out on the other side of the county, it runs into 
the Atlantic. And knowing that that Gulf Basin, that 
Chattahoochee River water system is so threatened with 
overutilization or undersupply, we make an effort to put as 
much as we can back into that basin. And yet, as we talk about 
water allocations, we get absolutely no credit for the $1 
billion water treatment plant that is doing it better and 
taking more stewardship responsibility than any other community 
in the basin.
    If we are to encourage jurisdictions to take those risks, 
to make those investments that are going to benefit us all as a 
community, as a region, as a Nation, we have got to get some 
credit. It has got to be skin in the game for making bad 
decisions and skin in the game for making good decisions.
    Could you speak to that just a little bit?
    General Spellmon. No, sir, I agree with you. Thank you for 
those comments. I have got much to learn about Lake Lanier and 
this particular basin and the project, the recycling project 
that you mentioned. I would love the opportunity to get down 
there and walk the ground with your staff and the constituents, 
and then come back to you on the math of the reallocation that 
you mentioned.
    Mr. Woodall. I appreciate that. I know folks want to be 
good stewards, and I am proud to represent a community that 
puts its money where its mouth is, but just like good tax 
policy encourages people to make different decisions, good 
water policy is going to encourage more good stewardship in the 
basin.
    I also want to make sure I told you, we often have forums 
to poke the Corps for things that didn't go the way we wanted 
them to go, and I get those telephone calls from constituents. 
In fact, I have several families with wheelchair-bound family 
members who live on Lake Lanier. And, of course, if you want to 
get from your house to your dock, you have got to roll over 
Corps property to get there, and the Corps has some real rules 
about how you can develop that property. And these families 
were unable to put together a pathway that their family members 
could use to get from the house to the dock.
    I mentioned that to our local Corps leadership, and they 
said, not on my watch is that going to be true. These rules are 
in place to protect communities, these rules are in place to 
empower communities, and these rules are not in place to stifle 
families who are just trying to do the very best they can with 
the hand they have been dealt. And you all stepped in, made the 
necessary waivers and allocations such that those family 
members are now utilizing their facilities, and those families 
feel included in our entire regulatory process.
    It could have been a multiyear headache. It could have been 
one of those things that we argued about for a decade, but 
instead, it was one of those things that your men and women on 
the ground took responsibility for, said, we can do better and 
we will do better and we wish this had never happened to these 
families to begin with. And I just want to thank you for giving 
the teams on the ground the kind of flexibility to make those 
things happen.
    General Spellmon. Thank you, sir. I am very familiar with 
this issue from my time. Very similar cases in the Missouri 
River, on the Columbia River, and all the tributaries, I 
understand, and thank you for the comment.
    Mr. Woodall. And one final accolade that we did have thefts 
start to tick up, and one of the regulations that we had in 
terms of trying to keep docks up to code was that security 
cameras were prohibited on docks, as were couches and old 
washing machines, dryers, and things that you would want to be 
prohibited from the dock. But security cameras made that list. 
You all partnered with us last summer to change that 
regulation. It has made a real difference in terms of 
homeowners and their security and their watercraft security.
    So, again, things that once upon a time, 4, 5, 6 years ago, 
would have just been like pulling teeth to get done, you all 
are making possible, and I am grateful to you for really 
changing the partnership spirit that those men and women with 
whom you work every day on Lake Lanier are feeling. Thank you.
    General Spellmon. Thank you, sir. Thank you.
    Mr. Woodall. I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you, Mr. Woodall.
    I recognize myself.
    General, Houma Navigation Canal, section 203 that has been 
submitted to the Corps of Engineers, candidly myself and 
Congressman Scalise are a bit frustrated that we are not 
talking about that today. Could you give us an update on the 
status of that, 203?
    General Spellmon. Yes, sir, I can. It is under executive 
branch review. I believe specifically it is with the Office of 
Management and Budget, sir. It went over to the office in early 
August. And I believe they have upwards of 60 days to conduct 
their review, but that is where the----
    Mr. Graves of Louisiana. And how long did it take the Corps 
to review this?
    General Spellmon. Sir, I could get you that answer. I don't 
know.
    Mr. Graves of Louisiana. Actually, I think I have it 
already, but I just--I want to reiterate the urgency of that 
project. It would be incredibly unfortunate to miss the window 
that we have on this bill right now to authorize construction 
of that project.
    And, General, I just want to make note, as a sort of 
thematic concern: This project dates back to 1998, as I recall. 
And the project, according to the Corps of Engineers' own 
schedule, was supposed to be completed, a Chief's Report was 
supposed to be completed, let's see, even on your revised 
schedule, which was crazy, because I think it came back and 
suggested 2008, which a project that was authorized or study 
authorized in 1998, I think the revised schedule by the Corps 
of Engineers showed completion by the Corps in 2008. So 10 
years to look at simply a deepening project.
    Then when the Corps continued spinning the wheels, the 
locals ended up converting it to a 203, which is where we are 
now. So I just want to, again, reiterate the urgency there.
    General, next question. General Semonite has ordered the 
Corps of Engineers to move forward on a reorganization plan. 
You are familiar with the House bill that does direct the GAO 
to conduct a study looking at perhaps a different home agency 
for the Corps of Engineers. The President's reorganization 
plan, which I support this component of it, also looks at 
reorganizing a portion of the Corps within the Department of 
the Interior and a portion with the Department of 
Transportation.
    While I am not willing to endorse those agencies at this 
point, I do believe that there is some compatibility issues 
with the Corps being in the Department of Defense. When I 
called Secretary Mattis and talked to him about Russia and 
China and North Korea and Syria and Iran, I don't think I 
should also add a wetlands permit. It is not compatible.
    Could you give us an update on where the Corps is with 
that?
    General Spellmon. Yes, sir. So we have had the opportunity 
to brief both General Semonite, Secretary James, and Dr. Esper. 
We walked him through the early stages of a mission analysis: 
What are the limitations and constraints? What are some of the 
legislation that would have to be changed in order to implement 
this particular proposal?
    What I shared with all three, including Dr. Esper, after 
walking him through the six major bodies of legislation that 
would have to be changed, is the point you just mentioned. We 
do not think it would be wise to separate water management 
responsibilities on any basin between two Federal agencies. The 
eight project purposes in many cases that Congress asked us to 
achieve with water above and below our projects, those 
decisions ought to remain in one agency.
    The second concern that we outlined to our leadership was 
the loss of the Civil Works workforce, and the impact to the 
Department of Defense. So, sir, you know there are 22,900, 
roughly, Civil Works employees in the Corps, and they do much 
more than just civil work. So today you have Civil Works 
employees renovating and modernizing the Mosul Dam in Iraq on 
behalf of the Department of State and CENTCOM.
    We have Civil Works employees in Afghanistan working on the 
Northeast and Southeast power system, again, in support of the 
combatant commander there. You are familiar, that we sent Civil 
Works employees to Puerto Rico to restore the power grid when 
the Nation called. So the guidance that came out of Secretary 
Mattis' staff was, as we do this planning, is there a way that 
we retain that capability, either internally, or have an 
expeditionary capability in the other agencies?
    So to answer your question, sir, we are on the very early 
stages of outlining all of this to our leadership, and we have 
more work to do. I would say it is the same people, the same 
staff that is trying to deliver on this record supplemental and 
program that Congress has trusted us with that would be doing 
this particular planning.
    Mr. Graves of Louisiana. General, thank you.
    I just want to quickly note a couple of other things. One, 
I do want to thank you and thank your team for the allocation 
of supplemental funds. We do plan on having a hearing. I know 
there are a number of Members from Texas and Florida, as well 
as myself, Members from Louisiana and other States that are 
very interested in the implementation plan, want to ensure 
proper oversight, want to discuss with you the potential for 
where section 1043 authority may apply to ensure expedited 
implementation of those projects.
    Also, I would like to talk to you a little bit about some 
of the problems we had with permits, and particularly the 
Shellfish Caucus issues in your former area of operation out 
West.
    And, lastly, we are going to submit some questions to you 
on the record, pertaining to some of the projects that we are 
having oversight over today, particularly, the lower San 
Quentin. We are talking about potentially $42 million per mile 
for that project, much of which is existing levees.
    I have questions about Seattle Harbor. You are talking 
about $65 per cubic yard of material. I understand it is a 
locally preferred plan. Just want to make sure we understand 
those components. That is an extraordinary cost.
    I would like cost on cost per cubic yard for the Norfolk 
Harbor.
    San Juan Harbor, I know this is a really important project 
for recovery. Thinking about $350 million to be borne by the 
island of Puerto Rico right now when we all know their 
financial situation. In addition to the authorization of this 
project, I think we need to have a discussion about a financial 
plan. I think that should include obviously my friend Mrs. 
Napolitano, but also Congresswoman Gonzalez-Colon needs to be 
part of this. We need to be discussing how to implement this. 
This is part of their recovery, and we need to make sure that 
we don't just authorize it, but we actually have a feasible 
financial plan of how to move forward.
    Lastly, on the Soo locks, just looking at this, you are 
increasing your contingency to 37 percent, 37 percent 
contingency on this project. General, I have built tens of 
billions of dollars in projects in this space over my life; 37 
percent is a high cost. This project dates back decades. You 
also were showing a 700-percent variance in your BC ratio. 
Those numbers, you are asking us to authorize nearly a $1 
billion project. That is an awful lot of wiggle room. You have 
got to give us some confidence that you know what you are doing 
and that this is going to be a good investment for taxpayers. 
So I would like to learn a little bit more about that one. But 
with that, I am over time.
    And any other questions that folks have? The gentlewoman 
from California?
    Mrs. Napolitano. Thank you, Mr. Chair.
    No, I will submit my questions for the record. I do have 
some.
    Mr. Graves of Louisiana. We good? All right.
    So, General, again, I want to thank you very much for being 
here today. I know this was your first time, and I know you 
haven't been in that job very long. So I do appreciate you 
getting up to speed on all of these issues that are important 
to the subcommittee and to the full committee. If there are no 
further questions, I want to thank you for being here today, 
and this has been informative and helpful.
    This is going to be probably one of our--one of our final--
though there should be a few others, but I do want to make 
note, and I am sure there are going to be other opportunities 
in closing that our full committee chairman, Mr. Shuster, is 
retiring from the Congress. It has been an incredible pleasure 
to work with him. He has been able to get us on a track for a 
2-year water cycle. He has been a very fair, bipartisan 
chairman.
    I remember when I first came to the Congress, and I told 
him of my interest to join the committee; I think he got right 
up in my face in a very intimidating manner and said: Are you 
going to do what I say?
    And I very sheepishly said: When you are right.
    And he really has been a great chairman to work with and 
really been very fair on policy.
    I think we are going to see incredible, incredible reforms, 
and I am very excited to see implementation of this 
legislation, of FAA legislation, disaster recovery, of course 
the FAST Act, and many other bills that are going to be an 
important part of his legacy but, most importantly, affect the 
lives of every American. So he is going to have an important 
legacy, and I do appreciate the opportunity to work with him.
    If no other Members have anything else to add, then the 
committee stands adjourned.
    [Whereupon, at 10:12 a.m., the subcommittee was adjourned.]

                                    
</pre></body></html>
